CERTIFICATE OF COMPLIANCE
No. 19-132

Lawrence I. Fejqkwu,
Petitioner,
v.
Commodity Futures Trading Commission,
Respondent.

As required by Supreme Court Rule 33.1(h), I, Lawrence
Ikemefune C. Fejqkwu, certify that the petition for rehearing in
support of the petition for a writ of certiorari contains 2997 words
which is in compliance with Supreme Court Rule 33.1(g)(iv). This
word count excludes the parts of the petition that are exempted
by Supreme Court Rule 33.1(d). The word count has been
determined by the word count feature of Microsoft Word.
I declare under penalty of perjury that the foregoing is true and
correct.
Executed on the 1st day of November, 201^

A

Lawrence Ik£m£;fune C. Fejqkwu

